                                                  TABLE OF CONTENTS


EXECUTIVE SUMMARY ....................................................................................................... ii

ISSUES TO BE ADDRESSED ................................................................................................. 1

BACKGROUND ........................................................................................................................ 1

METHODOLOGY .................................................................................................................... 2

FINDINGS .................................................................................................................................. 2

OIG RESPONSE TO AGENCY COMMENTS ..................................................................... 9

APPENDIX............................................................................................................................... 11




                                                                                                                                            i
EXECUTIVE SUMMARY

PURPOSE AND BACKGROUND

This inspection provides preliminary information on the extent to which recipients under
the Federal and State Technology (FAST) program are measuring performance of their
program activities.

The Consolidated Appropriations Act of 2001 (P.L 106-554) established the FAST
program. Administered by SBA’s Office of Technology (OT), FAST is a competitive
grants program that allows a state to receive funding in the form of a grant to provide an
array of services in support of the Small Business Innovation and Research (SBIR)
program. Organizations and individuals in every state (including state economic
development agencies, small business development centers, or any other entity involved
in the development of small technology firms) are eligible to participate in the FAST
program. The program originated in recognition by the Congress that because programs
to foster economic development among small high-technology firms vary widely among
States, a need exists to improve the participation of small technology firms in the
innovation and commercialization of new technology. In FY 2001, 30 state organizations
were awarded FAST grants.

The Consolidated Appropriations Act of 2001 requires the Inspector General of the SBA
to conduct a review of the extent to which FAST recipients are measuring the
performance of their activities and the overall management and effectiveness of the
FAST program. The Act stipulates that in making FAST awards, the SBA Administrator
and SBIR Program Manager shall consider the manner in which applicants plan to
measure the results of their activities. The law also requires the Inspector General to
submit to Congress a report based on this review during the first quarter of fiscal year
2004. This inspection is intended to provide baseline information for the report to
Congress and information that SBA can use in the early implementation stages of the
program.

RECOMMENDATIONS

Improve Guidance. So that SBA does not overwhelm recipients with reporting
requirements and with a view to increase the quality of indicators on which recipients
report, we recommend that the FAST program office refine its guidance to better assist
prospective FAST applicants with narrowing their focus on fewer indicators by limiting
the number of indicators on which they can report.

Withhold Funding from Non-reporting Recipients. The OIG recommends that OT
contact each FAST recipient that did not submit a semi-annual report to encourage them
to prepare and submit a report. If reports are not forthcoming during the second cycle,
appropriate steps should be taken to withhold funding.




                                                                                          ii
Better Linkage between Performance Reporting and Proposed Indicators. To
facilitate an assessment by the FAST program office of whether recipients are on track to
achieve the goals and objectives of the program, OT should develop clear guidance for
recipients on how performance measurement reporting should be linked to indicators
presented in the technical proposals.




                                                                                       iii
PURPOSE

This inspection provides preliminary information on the extent to which recipients under
the Federal and State Technology Partnership (FAST) program are measuring
performance of their program activities.


ISSUES TO BE ADDRESSED

Specific issues addressed in this inspection include: 1) the adequacy of guidance issued
by SBA to FAST program participants on the use and reporting of performance
indicators; 2) the extent to which FAST participants adhered to the technical proposal
requirement to include a detailed description of how they plan to measure the results of
the activities conducted under the program; and 3) whether the characteristics of the
performance indicators provided in the participants’ technical proposals are sufficient to
measure performance, including whether the indicators include baseline data and targets.


BACKGROUND

The Consolidated Appropriations Act of 2001 (P.L 106-554) established the FAST
program. The purpose of the FAST program is to strengthen the technological
competitiveness of small business concerns in the states by ensuring their participation in
federal research and development. Administered by SBA’s Office of Technology, FAST
is a competitive grants program that allows a state to receive funding in the form of a
grant to provide an array of services in support of the Small Business Innovation and
Research (SBIR) program. SBIR is a program that protects small hi-tech businesses and
enables them to compete on the same level as larger businesses by reserving a specific
percentage of federal R&D funds for them. In FY 2002 this amounted to 2.5 percent of
10 agency’s extramural R&D budgets, totaling $1.5 billion. Organizations and
individuals in every state (including state economic development agencies, small
business development centers, or any other entity involved in the development of small
technology firms) are eligible to participate in the FAST program. The program
originated in recognition by the Congress that, because programs to foster economic
development among small high-technology firms vary widely among states, a need exists
to improve the participation of small technology firms in the innovation and
commercialization of new technology. In FY 2001, 30 state organizations were awarded
FAST grants.

The Consolidated Appropriations Act of 2001 requires the Inspector General of the SBA
to conduct a review of the extent to which FAST recipients are measuring the
performance of their activities and the overall management and effectiveness of the
FAST program. The Act stipulates that in making FAST awards, the SBA Administrator
and SBIR Program Manager shall consider the manner in which applicants plan to
measure the results of their activities. In addition, the law requires the Inspector General
to submit to Congress a report based on this review during the first quarter of fiscal year


                                                                                           1
2004. This inspection is intended to provide baseline information for the report to
Congress and information that SBA can use in the early implementation stages of the
program.


METHODOLOGY

The technical proposals submitted in June 2001 by the thirty FY 2001 FAST program
participants were the primary sources of information for this inspection. The FAST
program announcement and subsequent Notice of Award were also important sources of
information as they provide guidance and a description of the reporting requirements
regarding participants’ program performance. The FAST program announcement
requires a detailed description of how each applicant will measure the results of the
activities conducted. This section of each participant’s proposal received particular
focus. The semi-annual report submissions by the FAST program participants were also
reviewed to assess the extent to which stated performance indicators were reported on,
taking into consideration the short time that has elapsed since program awards were
announced. The inspection covers materials developed by SBA and submitted by FAST
grantees for and during the first 6 months of program operation.


FINDINGS

   Fast Program Announcement

Finding 1: The FAST program announcement could provide better guidance on
developing performance indicators and better explain how these will be monitored
and assessed by the program office post-award to evaluate recipient activities.

The FAST program announcement adequately communicates to prospective applicants
the legislative intent and long-term goals of the program and requires applicants to state
the objectives of their proposed effort. In addition, the announcement includes the
requirement that applicants incorporate performance indicators into their proposals and
explains how such indicators will be used to evaluate proposal submissions. The
proposal preparation guidelines in the program announcement instruct applicants to
describe in detail how they will measure the results of the activities they will conduct and
states that data from these indicators will be reporting requirements throughout the
funding period. Under the section that describes how proposals will be evaluated and
selected, applicants learn that they will receive a score of up to 15 points (of 100) based
on their performance indicators.

The program announcement, however, could provide better guidance on developing
performance indicators and better explain how these will be used and assessed by the
program office post-award to evaluate their activities rather than simply requiring
indicators for reporting purposes. Indeed, the announcement states that their “indicators
and results will become important data in the evaluation of future FAST proposals and


                                                                                            2
contributions for SBIR program assessments,” but provides no further explanation,
guidance or the type of information needed for these evaluations.

Later in the program announcement, prospective applicants receive a general explanation
of the FAST award reporting requirements. Program participants are required to submit
semi-annual reports no later than thirty days after the completion of the six months from
the date of award. First time FAST awards were granted October 1, 2001, which
translates into a due date of May 1, 2002, for the first semi-annual reports. The second
(and final) report is due no later than thirty days after the completion date of the
agreement, which translates into a due date of November 1, 2002. Applicants are then
informed that “SBA will withhold payments if reports are not received timely or are
deemed inadequate”.

Following this general explanation of reporting requirements, more specific guidelines
are provided regarding what to include in the performance reports. The program
announcement explains that recipients must submit a semi-annual performance report
“summarizing all FAST-related activities undertaken during this time frame, using the
objectives and performance indicators proposed by the applicants…The recipient should
present comprehensive information on the initiatives and activities undertaken…and
describe how these efforts correlate to the objectives and performance indicators
incorporated into the agreement.”

The program announcement goes further still, providing examples of the types of
activities FAST participants may want to consider when reporting the results of their
activities in the semi-annual reports:

   §       Training activities (conferences, courses, seminars)
              § Title of activity, date, location, duration, number of participants
              § A paragraph describing the objectives of the training and evaluating its
                  effectiveness in meeting these objectives
   §       Counseling/Technical Assistance Activities (generally one-on-one)
              § Business/firm name, client, address, e-mail address, phone number;
                  dates of assistance (from-to)
              § A paragraph describing the type of assistance provided
   §       Other activities, including significant accomplishments (outreach, support,
           mentoring, presentations, program development, etc.)
              § Activity, purpose, date, location
              § A paragraph describing the objectives of the activity and evaluating its
                  effectiveness in meeting these objectives

These examples of the types of efforts SBA suggests that recipients consider reporting
come with the caveat that they are not intended “to be prescribed or exhaustive” and
continue to be the most specific guidance and instruction provided to prospective FAST
applicants on what to report in the semi-annual reports and what will be used to evaluate
future FAST proposals and contributions for the SBIR program. If used by FAST
recipients to report results of their activities as suggested by SBA, it would provide little



                                                                                                3
more than a summary of program activities and make it difficult to distinguish desired
outcomes and results of program activities.

      FAST Notice of Award

Finding 2: The FAST notice of award adds to the activity related information
participants are to present in their semi-annual performance reports, but does not
provide guidance to assist participants in identifying desired outcomes and results.

The FAST Notice of Award issued to the thirty state organizations receiving grants
repeats the reporting requirements detailed in the program announcement and offers no
additional guidance regarding the development of performance indicators. Because
technical proposals have been submitted and evaluated by the time the Notice of Award
is issued and indicators have already been developed and presented by FAST applicants,
the Notice document is not the appropriate or intended vehicle by which SBA provides
guidance on performance indicators. Despite this, we included the Notice document in
our review since it can serve as a tool to reinforce reporting requirements and provide
guidance on what and how to report using the participants’ performance indicators. The
program announcement therefore, is the document where detailed and specific guidance
on developing performance indicators ought to be focused and communicated.

Though offering no additional guidance on developing or providing performance
indicators, the Notice of Award adds to the activity related information that should be
presented in the participants’ performance reports. Like the examples contained in the
program announcement, the additional information requested in the Notice will do little
but provide a summary of participants’ activities without distinguishing desired outcomes
and results of participants’ activities. In fact, the Notice of Award states that “the
narrative for semi-annual performance reports must capture and summarize” FAST-
related activities. A sampling of the additional activity related information requested in
the Notice follows1:

          §      News clippings, brochures, etc;
          §      Names of staff and positions;
          §      Number of loans, grants, including Phase 0 awards;
          §      Number of clients grants, loans including Phase 0 awards if applicable;
          §      Training activities: date, location, duration, number of participants, etc.;
          §      Counseling: name of business/client, email address, mailing address, etc.;
          §      Outreach activities: participant list, date(s), location(s), summary of activity
                  and overall impact/effectiveness.

      Performance Measurement in the FAST Program

Finding 3: SBA’s focus on outputs in its guidance on performance indicators and
reporting requirements in the program announcement and Notice of Award


1
    See FAST Notice of Award for complete outline of additional reporting requirements.


                                                                                                4
documents contributed to an almost exclusive selection of output indicators by
FAST recipients to measure performance.

In our assessment of the status of performance measurement in the FAST program we
considered the performance measurement process to consist of three general stages: 1)
identifying goals, including specifying long-term and annual goals that include outcomes
of program activities; 2) developing performance indicators by selecting measures that
assess progress of program activities in achieving goals or intended outcomes; and 3)
reporting data and analyzing results.

 Our assessment of the 30 recipients’ proposals shows that recipients demonstrate
understanding of the legislative intent and long-term goal of FAST, which is to
strengthen the technological competitiveness of small business concerns in the states. In
part, this is likely due to the clear discussion of the program’s intent and goals as it
appears in the program announcement and the guidance to applicants to include
objectives as part of their technical proposals. Our observations noted however, that
while recipients may understand the long-term goal of the program and are able to
conceptualize the ultimate goal of increasing SBIR awards in their states, most appear to
have difficulty formulating performance goals that are achievable on an annual basis.
While long-term goals are fairly well identified by both SBA and FAST recipients,
annual expectations appear to be much less certain.
                                                          FIGURE 1: FAST Proposals w ith
 By any measure, FY 2001 FAST award recipients               Perform ance Indicators
made a significant effort to comply with the
technical proposal requirement that they include a          10%(3)
description of their plan to measure the results of                                  With
their activities. As Figure 1 shows, 27 or 90% of
                                                                                     Without
the 30 FAST award recipients provided
performance indicators in their proposals.                               90%(27)


Indicators constitute a critical component in the ability to measure program performance
as they signal changes in certain conditions or results of program activities.
Appropriately developed and selected, indicators provide evidence of progress that
program activities have toward the attainment of program goals. Our review of the
indicators provided by FAST recipients revealed that in nearly all cases the indicators
measured program outputs, such as number of workshops conducted, number of clients
receiving SBIR technical assistance or number of commercialization plans developed.
While these outputs measure the amount or frequency of a product or service, they do not
guarantee that the product or service has its intended result. Relying on such output
indicators alone presents an impossible challenge to assess performance and distinguish
results. Outcomes, on the other hand, signify results. The concept of “outcome” appears
difficult for all FAST recipients to incorporate in their proposals.

Commonalities became evident among the indicators participants provided in their
proposals. These commonalities were likely influenced by the guidance received from
SBA, which resulted in the heavy application of output indicators in the performance



                                                                                               5
reporting plans. Three such output indicators commonly provided are those mentioned in
the preceding paragraph. A more detailed list of the indicators most commonly provided
by participants and the number of participants using the indicator is found in Table 1
below.

Table 1: Commonly Provided Indicators of FAST Grant Recipients

                        INDICATOR                             NUMBER GRANTEES
                           Outputs
Number of clients counseled                                            26
Number of outreach events                                              23
Number of training and educational programs/workshops                  17
Number served with proposal writing assistance                         11
Number of mentors and companies recruited to participate in            11
the mentoring program
Commercialization assistance and plans developed                        9
Number of information pieces mailed                                     8
Develop, populate and maintain a database of companies                  8
identified as having potential to participate in federal
SBIR/STTR programs and/or to identify and track the
progress of innovative technology projects
Recruit and hire FAST staff                                             7
Number of SBIR/STTR proposals reviewed                                  7
Number of website hits                                                  4
Number of counseling hours spent with clients                           4

                 Intermediate Outcomes
Total number of SBIR/STTR Phase I proposals submitted                  14
Total number of SBIR/STTR Phase II proposals submitted                 10
Number of Phase 0 grants awarded                                        5

                   Long-term Outcomes
Number of clients that received SBIR/STTR awards                        2
Number of SBIR/STTR proposals submitted and resulting                   9
awards
Rank in the number of SBIR awards (Phase I and II)                      2

                      Indirect Outcomes
Amount of additional add-on non SBIR R&D funding                        1
generated
Ratio of employment in the 9 key industry clusters to total             1
employment
Strive of a 5% per year increase in the SBIR/STTR award                 1
success rate for SBIR companies
Jobs created                                                            2
Increase high-tech company creation                                     1
State per capita income                                                 1

The table shows that the majority of FAST participants are attempting to measure the
results of their activities with output indicators. While not a list of all the indicators
provided by participants in their proposals, Table 1 offers a representation of the types of


                                                                                           6
indicators developed by the program’s participants, including the most frequently applied
indicators. A majority of the remaining indicators provided by the participants, but not
listed in Table 1, can likewise be classified as output indicators.

The first group of indicators in Table 1 under the heading “Outputs” are the output
indicators most frequently provided by recipients in their proposals, some of which are
directly provided as examples by SBA of the types of information to report. While
outputs are usually the most easily available measures, FAST participants ought to be
required to provide data on outcomes.

The next group of commonly provided indicators shown in Table 1 is labeled
“Intermediate Outcomes.” These are indicators FAST participants can realistically affect
with their outputs and which contribute to the achievement of higher-level outcomes and
the goals of the program. The longer term and aggregate effect of outputs are measured
by intermediate outcomes. Program participants can more effectively tell their story of
progress with outcome (as opposed to output) measures. However, outcome data are
more difficult to generate than output data, particularly when periods of performance are
short as with the FAST program.

The next group of indicators in Table 1 is titled “Long-term Outcomes.” Long-term
outcomes are those that are directly pertinent to the program’s mission and goals and
which FAST participants are striving toward. FAST participants produce outputs in
order to achieve intermediate outcomes so that these ultimately achieve the program’s
mission and goals. While our review found just a small number of FAST participants
with long-term outcomes as part of their performance measurement plans, we caution
them and the program office to ensure that the reported results against these indicators
apply directly to participants’ program activities and represent the achievements of their
clients only. For example, if a long-term outcome is the number of SBIR/STTR
proposals submitted and resulting in awards, FAST participants should report only the
number of proposal submissions that are directly attributable to its program activities, as
opposed to proposals that would have been submitted in their state regardless of their
FAST grant.

The last group of indicators we titled “Indirect         FIGURE 2: Number of Performance
Outcomes.” This group is a sampling of                      Indicators in Each Proposal

indicators provided by FAST participants that in                                        1-5
our view is beyond the manageable interest of          37%(10)           11%(3)
program participants. Though we do not believe                                          6-10

a FAST participant would hold itself                                                    11-15
accountable to an increase in its state per capita             22%(6)
                                                                              30%(8)
                                                                                        >15
income (see Table 1), this group of indicators
should signal to the FAST program office the
degree to which it will need to provide
assistance to future FAST participants in the formulation and selection of appropriate
indicators that will be useful in managing the program.




                                                                                                7
In addition to the commonalities discussed above in the usage of indicators by program
participants, our review also noted substantial variations. What varied considerably
among recipients was the quantity of performance indicators recipients provided in their
proposals. Figure 2 shows the distribution of the number of indicators tracked by
recipients across four groupings. Almost 40% of recipients with performance indicators
in their proposal listed 15 or more measures on which to report, a considerable task
considering that recipients must collect, analyze and report data semi-annually. Just 3
recipients listed between one and five indicators on which to report their performance.
The large number of recipients planning to report on 15 or more indicators may stem
from SBA guidance on performance indicators and reporting requirements in the program
announcement and notice of award.

Recommendation 1: So that SBA does not overwhelm recipients with reporting
requirements and with a view to increase the quality of indicators on which
recipients report, we recommend that the FAST program office refine its guidance
to better assist prospective FAST applicants with narrowing their focus on fewer
indicators by limiting the number of indicators on which they can report.

 As Figure 3 shows, not one FAST recipient was
                                                          FIGURE 3: FAST Proposals w ith
able to provide baseline data for their proposed
                                                            Performance Indicators that
performance indicators, another signal that                    Include Baseline Data
recipients may require assistance to adequately                      0
implement performance measurement and                                                With
reporting of their results. The absence of
baseline data for recipients’ indicators presents a                                  Without

significant problem for FAST program managers
                                                                   27
to objectively assess whether recipients’
respective program activities are performing well
and whether the program in general is achieving           FIGURE 4: FAST Proposals w ith
its goals and objectives.                                   Performance Indicators that
                                                                Include Target Data
 We also observed that barely more than a third
of recipients paired target data with their                                      37%(10)
indicators (Figure 4). Without targets, indicators
are of little use for understanding program                                          With
performance. Targets should be ambitious, yet                                        Without
                                                      63%(17)
realistic.

   Extent to Which FAST Participants Followed Reporting Requirements

Finding 4: Too many FAST participants did not abide by SBA requirements to
submit semi-annual performance reports.

The third general stage of the performance measurement process pertains to reporting
indicator data and analyzing results. We’ve noted that FAST participants generally
followed SBA guidance regarding the types of indicators and program activities on which



                                                                                               8
to report. We also noted that the program                  FIGURE 5: FAST Participants
announcement states (and repeated in the Notice           Subm itting 1st Semi-Annual
of Award) that program participants are required                     Report
to submit semi-annual reports no later than thirty     17%(5)
days after the completion of the six months from                                   83%(25)
the date of award. In fact, the announcement
stipulates that “SBA will withhold payments if
reports are not received timely or are deemed
inadequate. As Figure 5 shows, 5 FAST                    Submitting   Not Submitting

participants, nearly 20 percent, did not submit to
SBA the required semi-annual performance report. While we are not aware of SBA
withholding payments as stated in the announcement for non submission of the required
semi-annual report, we are also not aware of a review conducted by the FAST program
office which would have assessed the adequacy or inadequacy of submitted reports.

Recommendation 2: We recommend that the program office contact each FAST
recipient that did not submit a semi-annual report to encourage them to prepare
and submit a report. If reports are not forthcoming during the second cycle,
appropriate steps should be taken to withhold funding.

Reporting on performance is only useful to
                                                          FIGURE 6: Semi-Annual Reports
program managers to assess progress if it is clearly          Linked to Performance
linked to the performance measures and targets in         Indicators Provided in Proposal
place before initiation of program activities. Our
review of the 25 semi-annual performance reports      68%(17)                32%(8)
submitted by FAST participants found that only 8
participants, just over a quarter of the total,
successfully linked their performance reports to
the indicators in their program proposals (Figure                 Linked Not Linked
6). Although the semi-annual reports submitted
consist of ample discussion of the progress of program activities to date, it is difficult and
confusing to assess whether individual FAST participants are on track to achieve the
goals and objectives of the program.

Recommendation 3: To facilitate an assessment by the FAST program office of
whether recipients are on track to achieve the goals and objectives of the program,
we recommend that the program office develop clear guidance for recipients on how
performance measurement reporting should be linked to indicators presented in the
technical proposals.


OIG RESPONSE TO AGENCY COMMENTS

In its response to our draft report, the Agency provided some technical corrections and
other comments. Where appropriate, we incorporated these changes into this final report.




                                                                                             9
Additionally, GC/BD explains that OT has been working with the states through tri-
annual meetings to establish baseline reporting elements and outcome metrics in order to
make recipients more accountable for results of their planned FAST activities. GC/BD
also states that FAST award recipients have begun to share success stories to help
identify metrics and that this information will assist it in developing guidance to assist
recipients to develop and establish metrics for their individual programs.

This type of collaboration and technical assistance provided to recipients is consistent
with the intent of our recommendations—that OT develop and provide guidance on the
types of indicators that more accurately reflect results, not outputs, and how such
performance indicators ought to be formulated. Any guidelines developed and any other
products that result from these tri-annual meetings and other collaboration among award
recipients will need to be documented and distributed to all recipients to ensure the
equitable dissemination of information.




                                                                                        10
APPENDIX




           11
12
13
